     Department of Homeland Security




       FEMA Public Assistance Grant Funds Awarded
             to the Kentucky National Guard




DA-12-08                                   February 2012
                                                                                      Office ofInspector General

                                                                                      U.S. Department of Homeland Security
                                                                                      Washington, DC 20528




                                                                                       Homeland
                                                                                       Security
                                                                            FEB 1 7 2012

MEMORANDUM FOR:



FROM.



SUBJECT:                                    FEMA Public Assistance Grant Funds Awarded
                                            to the Kentucky National Guard
                                            FEMA Disaster Number 1818-DR-KY
                                            Audit Report Number DA-12-08

We audited public assistance funds awarded to the Kentucky National Guard (Guard), FIPS
Code 000-U99EW-00. Our audit objective was to determine whether the Guard accounted for
and expended Federal Emergency Management Agency (FEMA) grant funds according to
federal regulations and FEMA guidelines.

As of April 26, 2010, the Guard had received a public assistance award of$8.8 million from the
Kentucky Department of Emergency Management (State), a FEMA grantee, for damages
resulting from severe ice storms that occurred in February 2009. The award provided 75%
FEMA public assistance funding for emergency protective measures and permanent repairs to
buildings and facilities for one large project for $8,749,425 (Project 2036) and one small project
for $27,100 (Project 1238).1

We reviewed the $8.8 million awarded to the Guard under the two projects. The audit covered
the period January 26,2009, to April 26, 2010, during whlch the Guard claimed $8.8 million and
n~~ceived $5.9 million ofFEMA funds under the projects. At the time of our audit, the Guard had
completed the work under the projects, but had not submitted final claims on project
expenditures to the State.

We conducted this performance audit pursuant to the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based upon our audit objective. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based

I   Federal regulations in effect at the time of the disaster set the large project threshold at $64,200.
upon our audit objective. We conducted this audit applying the statutes, regulations, and FEMA
policies and guidelines in effect at the time of the disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed FEMA,
State, Kentucky Department of Military Affairs2, and Guard officials; reviewed the Guard’s
procurement policies and procedures; reviewed applicable federal regulations and FEMA
guidelines; and performed other procedures considered necessary to accomplish our audit
objective. We did not assess the adequacy of the Guard’s internal controls applicable to its grant
activities because it was not necessary to accomplish our audit objective. However, we did gain
an understanding of the Guard’s methods of accounting for disaster-related costs and its policies
and procedures for administering activities provided for under the FEMA award.


                                               RESULTS OF AUDIT

The Guard accounted for project expenditures on a project-by-project basis as required by
federal regulations and FEMA guidelines. However, the Guard’s claim included $468,518 of
questionable costs under emergency protective measures Project 2036 consisting of unsupported,
excessive, and ineligible charges.

Finding A: Supporting Documentation

The Guard’s claim included $424,134 of unsupported contract costs. Invoices for these costs did
not include supporting documentation, such as equipment logs, vehicle trip tickets, flight records,
fuel receipts, time and attendance records, and so on. Federal cost principles, 2 CFR 225, Cost
Principles for State, Local, and Indian Tribal Governments, Appendix A, Section C.1.j, states
that a cost must be adequately documented to be allowable under federal awards. Therefore, we
question the $424,134 of charges that were not supported by adequate documentation, as
identified in table 1.

                               Table 1: Questioned Costs – Supporting Documentation
                                                                                 Amount Claimed
                     Description of Activities/Charges
                                                                                 and Questioned
                     Missing equipment logs and vehicle trip tickets                          $388,465
                     Missing flight records and fuel receipts                                   16,081
                     Missing backup documentation                                               11,438
                     Missing time and attendance records                                         7,376
                     Charge belonged to another agency                                             774
                     Total                                                                   $ 424,134




2
 The Kentucky Department of Military Affairs (Department of Military Affairs) is responsible for the Guard’s administrative
and financial oversight.

                                                              2
Finding B: Contract Equipment Costs

The Guard’s claim for equipment rental included $33,507 of excessive costs. The Guard rented
generators from two vendors to perform project work and was billed $69,062 for the rental costs.
According to a memorandum specifying the rental terms, the vendors were to charge the
generators at FEMA equipment rates. The vendors billed the generators at $45 per hour, but the
invoices did not identify the wattage of the generators. After further review and interviews, we
determined the actual wattage of the generators was 40 kilowatts, which should have been billed
at the FEMA equipment rate of $22 an hour. Using this information, we applied the correct
FEMA rate for 40 kilowatt generators and allowed charges for fuel and a small trailer for the
generators to rest on while in operation. This methodology resulted in $33,507 of excessive
costs billed and claimed for use of the generators. Therefore, we question the $33,507.

Finding C: Maintenance Flight Test Charges

The Guard’s claim included $5,719 of ineligible flight test charges. The Guard leased aviation
equipment to assist in performing emergency protective measures. However, the vendor billed
for maintenance test flight time for aviation equipment totaling $5,719. According to a
memorandum of agreement for State Active Duty reimbursement, costs would be charged on
“flying hour costs.” As a result, we question the $5,719 claimed for maintenance test flight
charges.

Finding D: Force Account Labor Costs

The Guard’s claim included $3,329 of ineligible force account overtime costs resulting from
excessive fringe benefits and overtime labor charges.

Fringe Benefits. The Guard’s claim included $1,831 of ineligible overtime fringe benefits costs
for permanently employed personnel. The Guard calculated the overtime fringe benefits claim
using the rate for regular-time fringe benefits. However, fringe benefit rates for regular time and
overtime are different. Overtime fringe benefit costs are usually significantly less because
certain benefits such as vacation, holiday, and insurance are not dependent on overtime hours
worked. FEMA Policy 9525.7 (Labor Costs-Emergency Work, November 16, 2006) considers
the cost of straight-time salaries and benefits of an applicant’s permanently employed personnel
not eligible in calculating the cost of eligible emergency work. Using the correct overtime
fringe benefit rate, we determined that the Guard’s claim was overstated by $1,831. Therefore,
we question the $1,831.

Overtime Labor. The Guard’s claim included $1,498 in unreasonable overtime costs for force
account labor. The Guard claimed labor costs for one employee based on a 24-hour shift for 8
consecutive days. It is not reasonable for a person to work such a number of hours for several
consecutive days without a rest period.

According to 2 CFR 225, Cost Principles for State, Local, and Indian Tribal Governments,
Appendix A, Section C.1.a, allowable costs must be necessary and reasonable. Further, FEMA
policy recognizes the need for a standard, reasonable amount of force account labor hours.

                                                 3
FEMA Policy 9525.7 (Labor Costs-Emergency Work, November 16, 2006) requires
reimbursement of labor costs for employees performing emergency work to be limited to actual
time worked, even when an applicant is contractually obligated to pay for 24-hour shifts.
According to the policy, FEMA will reimburse up to 24 hours for each of the first 2 days, and up
to 16 hours for each of the following days for emergency work. Therefore, we allowed costs
claimed for the first two 24-hour days (48 hours) worked and allowed charges up to 16 hours of
work for the remaining 6 days. Using this methodology, we question $1,498 of costs claimed for
overtime labor.

Finding E: Ineligible Project Charges

The Guard’s claim included $1,829 of charges that were not related to performing emergency
protective measures. The Guard contracted services such as aviation equipment and vehicles to
assist in performing emergency protective measure work. However, after our review of
documentation, we noted billings totaling $1,829 that were unrelated to performing authorized
work under the project. This amount included a $1,409 flight charge to transport senior federal
and state officials and a $420 rental car charge for a senior military official. FEMA 321 (Public
Assistance Guide, January 2008, page 46) specifically states that emergency protective measures
are actions taken by a community before, during, and after a disaster to save lives, protect public
health and safety, and prevent damages to improved public and private property. In addition, 2
CFR 225, Cost Principles for State, Local, and Indian Tribal Governments, Appendix A, Section
C.1.a, requires that a cost be necessary and reasonable to be allowable under a federal award.
Therefore, we question the $1,829 of ineligible project charges.


                                  RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IV:

   Recommendation #1: Disallow $424,134 ($318,100 federal share) of unsupported costs
   (finding A).

   Recommendation #2: Disallow $33,507 ($25,130 federal share) of excessive contract
   equipment costs (finding B).

   Recommendation #3: Disallow $5,719 ($4,289 federal share) of ineligible maintenance
   flight test charges (finding C).

   Recommendation #4: Disallow $3,329 ($2,497 federal share) of ineligible force account
   labor costs (finding D).

   Recommendation #5: Disallow $1,829 ($1,372 federal share) of ineligible project charges
   (finding E).




                                                 4
            DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with FEMA, State, Guard, and Department of Military
Affairs officials during our audit. We also provided written summaries of our findings and
recommendations in advance to these officials and discussed them at the exit conference held on
October 19, 2011. Department of Military Affairs officials agreed with all audit findings and
said that they have since developed corrective action plans designed to restore and ensure future
compliance.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and (3)
target completion date for each recommendation. Also, please include responsible parties and
any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.

Consistent with our responsibility pursuant to the Inspector General Act, we are providing copies
of our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. To promote transparency, this report
will be posted to our website, with the exception of sensitive information identified by your
office. Significant contributors to this report were David Kimble, William H. Johnson, and
Nadine F. Ramjohn.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
David Kimble at (404) 832-6702.


cc:    Administrator, FEMA
       Audit Liaison, FEMA Region IV
       Audit Liaison, FEMA HQ (Job Code G-11-035)
       Audit Liaison, DHS




                                                5
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
